-1 APPENDIX
App. la - The [34* l] Memorandum and Judgment of
the United States Court of Appeals for the Ninth
Circuit, entered 12/10/2020

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-16786
D.C. No. l:l8-cv-00225-DKW-KSC
U.S. BANK, N.A., as Trustee for J.P. Morgan
Mortgage Acquisition Trust 2006-WMC2, Asset
Backed Pass-Through Certificates, Series 2006WMC2,
Plaintiff-Appellee,
v.
DONNA MAE AMINA; MELVIN KEAKAKU
AMINA,
Defendants-Appellants.
MEMORANDUM*
Appeal from the United States District Court
for the District of Hawaii
Derrick Kahala Watson, District Judge, Presiding
Submitted December 2, 2020**
Before: WALLACE, CLIFTON, and BRESS, Circuit

-2Judges.
Donna Mae Amina and Melvin Keakaku Amina
appeal pro se from the district court’s orders
concerning the imposition of attorney’s fees and costs
* This disposition is not appropriate for publication
and is not precedent except as provided by Ninth
Circuit Rule 36-3.
** The panel unanimously concludes this case is
suitable for decision without oral argument. See Fed.
R. App. P. 34(a)(2).
following the remand of their action to state court.
We have jurisdiction under 28 U.S.C. § 1291. We
review for an abuse of discretion a district court’s
award of fees and costs under 28 U.S.C. § 1447(c).
Lussier v. Dollar Tree Stores. Inc.. 518 F.3d 1062,
1065 (9th Cir. 2008). We affirm.
The district court did not abuse its discretion in
awarding plaintiff fees and costs because appellants
lacked an objectively reasonably basis to remove the
action, as their argument that Hawaii is not a state
is frivolous. See Martin v. Franklin Capital Com..
546 U.S. 132, 141 (2005) (“Absent unusual
circumstances, courts may award attorney’s fees
under § 1447(c) only where the removing party
lacked an objectively reasonable basis for seeking
removal.”); see also 28 U.S.C. 1441(b) (“A civil action
otherwise removable solely on the basis of [diversity
jurisdiction] may not be removed if any of the parties
in interest properly joined and served as defendants
is a citizen of the State in which such action is
brought.”).
We reject as meritless appellants’ contention that
the district court lacked jurisdiction to impose fees

-3-

and costs, and their various contentions concerning
the propriety of the award.
We do not consider matters not specifically and
distinctly raised and argued in the opening brief. See
Padgett v. Wright. 587 F.3d 983, 985 n.2 (9th Cir.
2009).
Appellants’ motions to file a supplemental brief
(Docket Entry Nos. 23, 24) are granted. The Clerk is
directed to file appellants’ Supplement to Opening
Brief (Docket Entry No. 20).
AFFIRMED.

-4App. lb - The [17] opinion of the district court

THE DISTRICT OF HAWAII
CV 18-00225 DKW-KSC
U.S. BANK NATIONAL ASSOCIATION, AS
TRUSTEE FOR J. P. MORGAN MORTGAGE
ACQUISITION
TRUST
2006-WMC2,
ASSET
BACKED
PASSTHROUGH
CERTIFICATES,
SERIES 2006-WMC2,
Plaintiff,
vs.
DONNA MAE AMINA also known as DONNA M.
AMINA; MELVIN KEAKAKU AMINA, also known
as MELVIN K. AMINA;
ASSOCIATION OF APARTMENT OWNERS OF
2304 METCALF STREET; AND DOES 1 THROUGH
20, INCLUSIVE ,
Defendants.
ORDER ADOPTING MAGISTRATE JUDGE’S
FINDINGS AND RECOMMENDATION
Findings and Recommendation having been filed on
July 6, 2018 and served on all parties on July 9,
2018, and Defendants’ July 16, 2018 objections being
so inconsequential and lacking merit so as not to
warrant further discussion or necessitate response,
IT IS HEREBY ORDERED AND ADJUDGED
that, pursuant to Title 28, United States Code,
Section 636(b)(1)(C) and Local Rule 74.2, the
"Findings and Recommendation to Grant Plaintiffs
Motion to Remand" are adopted as the opinion and

-5order of this Court.
IT IS SO ORDERED.
DATED- July 20, 2018 at Honolulu, Hawai’i.
/s/ Derrick K. Watson
Derrick K. Watson
United States District Judge
U.S. BANK NATIONAL ASSOCIATION, AS
TRUSTEE FOR J. P. MORGAN MORTGAGE
ACQUISITION TRUST 2006-WMC2, ASSET
BACKED
PASSTHROUGH
CERTIFICATES,
SERIES 2006-WMC2 v. Donna Mae Amina, et al.;
Civil No. 18-00225 DKW KSC; ORDER ADOPTING
MAGISTRATE
JUDGE’S
FINDINGS
AND
RECOMMENDATION

-6App. lc - A timely petition for rehearing was [41]
denied on 04/05/2021.
FILED APR 5 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18*16786
D.C. No. l:l8-cv-00225-DKW-KSC
District of Hawaii, Honolulu
ORDER
U.S. BANK, N.A., as Trustee for J.P. Morgan
Mortgage Acquisition Trust 2006-WMC2, Asset
Backed Pass-Through Certificates, Series 2006WMC2,
Plaintiff-Appellee,
v.
DONNA MAE AMINA; MELVIN KEAKAKU
AMINA,
Defendants-Appellants.
Before: WALLACE, CLIFTON, and BRESS, Circuit
Judges.
The Aminas’ petition for panel rehearing (Docket
Entry No. 37) is denied.
No further filings will be entertained in this
closed case.

-7App. Id - [12] Findings and Recommendations

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
CIVIL NO. 18-00225 DKW-KSC
U.S. BANK NATIONAL
ASSOCIATION, AS TRUSTEE FOR
J.P. MORGAN MORTGAGE
ACQUISITION TRUST 2006WMC2, ASSET BACKED PASSTHROUGH
CERTIFICATES,
SERIES 2006-WMC2,
Plaintiff,
vs.
DONNA MAE AMINA, ALSO
KNOWN AS DONNA M. AMINA;
MELVIN KEAKAKU AMINA
ALSO KNOWN AS MELVIN K.
AMINA; ASSOCIATION OF
APARTMENT OWNERS OF 2304
METCALF STREET; and DOES 1
through 20, Inclusive,
Defendants.
FINDINGS AND RECOMMENDATION TO GRANT
PLAINTIFFS MOTION TO REMAND
Before the Court is Plaintiff U.S. Bank National
Association, as Trustee for J.P. Morgan Mortgage
Acquisition Trust 2006-WMC2, Asset Backed PassThrough
Certificates,
Series
2006*WMC2’s

-8(“PlaintiffO Motion to Remand, filed June 25, 2018.
At the Court’s direction, Plaintiff filed a
Supplemental Memorandum on July 5, 2018.
The Court elects to decide this matter without a
hearing pursuant to Rule 7.2(d) of the Local Rules of
Practice for the U.S. District Court for the District of
Hawaii.1 After careful consideration of the Motion,
the Supplemental Memorandum, the record, and the
applicable law, the Court HEREBY RECOMMENDS
that Plaintiff s Motion be GRANTED for the reasons
set forth below.
BACKGROUND
On April 5, 2018, Plaintiff commenced this action
in the Circuit Court of the First Circuit, State of
Hawaii. Plaintiff asserts two causes of action- l)
declaratory relief and 2) judicial foreclosure.
Defendants Donna Mae Amina and Melvin Keakaku
Amina (collectively “the Aminas”) were served with
the Complaint on April 19, 2018. Mot., Ex. B.
On June 14, 2018, the Aminas removed the action
on the basis of federal question and diversity
jurisdiction. Notice of Removal (“Notice”) at HU 6-7.
Included in the Notice are the following averments1) the Notice is timely filed* 2) federal question
jurisdiction exists because the foreclosure of a
mortgage is an “attempt to collect” pursuant to the
Fair Debt Collection Practices Act (“FDCPA”); 3)
1 The Court also elects to proceed without full
briefing. The record is sufficiently clear to evaluate
the arguments presented by Plaintiff. The Court
would not be assisted by any response and, under the
circumstances, any arguments presented in further
briefing could not cure improper removal.

-9diversity jurisdiction exists because the amount in
controversy exceeds $75,000.00 and the action is
between citizens of different states. Id. at
2, 6 & 7.
The Aminas claim that they are not citizens of
Hawaii nor are they domiciled here because the
processes of Hawaii’s statehood and membership in
the union were legally defective.2
The instant Motion followed.
DISCUSSION
Plaintiff seeks remand of this action to state court
on the following grounds' 1) removal is untimely; 2)
federal question jurisdiction is lacking; 3) diversity
jurisdiction has not been established; and 4) 28
U.S.C. § 1441(b)(2)3 bars removal.
The Aminas removed the instant case on the
basis of federal question and diversity jurisdiction.
Under 28 U.S.C. § 1441, a defendant may remove a
2 It is unclear why the Aminas now elect to
make this misrepresentation because they have
claimed to be citizens of Hawaii in multiple other
actions in this district, including another currently
pending action. See Civil No. 18-00143 DKWKSC,
Amina, et al. v. WMC Finance Co., et al., Compl. at 1
65 (“Plaintiffs are citizens of Hawaii.”); Civil No. 1100747 JMSBMK, Amina, et al. v. Bank of New York
Mellon, et al., Compl. at f 6 (same), Amend. Comp],
at H 12, Second Amend. Compl. at ^ 12; Civil No. 1000165 JMS'KSC, Amina, et al. v. WMC Mortgage
Corp., et al., Compl. at 1) 8, Amend. Compl. at H 8,
Second Amend. Compl. at ^ 8. The Aminas’
citizenships are relevant to the extent that removal
is based upon diversity of citizenship.
3 Plaintiff incorrectly cited 28 U.S.C. § 1446.

-10civil action brought in a state court to federal district
court if the district court has original jurisdiction.
Abrego Abrego v. The Dow Chemical Co.. 443 F.3d
676, 679-80 (9th Cir. 2006). “Removal . . . statutes
are ‘strictly construed,’ and a ‘defendant seeking
removal has the burden to establish that removal is
proper and any doubt is resolved against
removability.’” Hawaii ex rel. Louie v. HSBC Bank
Nevada. N.A.. 761 F.3d 1027, 1034 (9th Cir. 2014)
(quoting Luther v. Countrywide Home Loans Serv.
LP, 533 F.3d 1031, 1034 (9th Cir.2008)); Durham v.
Lockheed Martin Corn.. 445 F.3d 1247, 1252 (9th
Cir. 2006); California ex rel. Lockver v. Dynegy, Inc..
375 F.3d 831, 838 (9th Cir. 2004).
There is a strong presumption against removal
jurisdiction, which “means that the defendant always
has the burden of establishing that removal is
proper,’ and that the court resolves all ambiguity in
favor of remand to state court.” Hunter v. Philip
Morris USA. 582 F.3d 1039, 1042 (9th Cir. 2009)
(quoting Gaus v. Miles. Inc.. 980 F.2d 564, 566 (9th
Cir. 1992) (per curiam)); California ex rel. Lockver,
375 F.3d at 838 (“[T]he burden of establishing federal
jurisdiction falls to the party invoking the statute.”);
Durham. 445 F.3d at 1252 (Courts resolve any
doubts about the propriety of removal in favor of
remanding the case to state court). Courts should
presume that a case lies outside the limited
jurisdiction of the federal courts. Hunter. 582 F.3d at
1042.
A.
The Aminas Untimely Removed on the Basis
of Federal Question Jurisdiction
The timing of removal is governed by § 1446(b),
which provides-

-11 (l) The notice of removal of a civil action or
proceeding shall be filed within 30 days after
the receipt by the defendant, through service
or otherwise, of a copy of the initial pleading
setting forth the claim for relief upon which
such action or proceeding is based ....
(3) Except as provided in subsection (c), if
the case stated by the initial pleading is not
removable, a notice of removal may be filed
within 30 days after receipt by the defendant,
through service or otherwise, of a copy of an
amended pleading, motion, order or other
paper from which it may first be ascertained
that the case is one which is or has become
removable.
28 U.S.C. § 1446(b). Section 1446 affords two thirtyday windows during which a defendant may remove
an action. The Ninth Circuit has held that “the first
thirty-day period for removal in 28 U.S.C. § 1446(b)
only applies if the case stated by the initial pleading
is removable on its face.” Harris v. Bankers Life and
Cas. Co.. 425 F.3d 689, 694 (9th Cir. 2005); Durham,
445 F.3d at 1252. Indeed, “the ground for removal
must be revealed affirmatively in the initial pleading
in order for the first thirty-day clock under § 1446(b)
to begin.” Harris. 425 F.3d at 695! Kerr v. Delaware
N. Companies, Inc.. No. 116CV01797LJOSAB, 2017
WL 880409, at *1 (E.D. Cal. Mar. 6, 2017) (citation
omitted) (“If there is no basis for removal evident
within the ‘four corners’ of a pleading, it is not
removable and the 30 day time limit does not begin
to run.”).
Section “1446(b)(3) applies only where a

- 12‘voluntary’ act of the plaintiff brings about a change
that renders the case removable.” Busch v. Jakov
Dulcich & Sons LLC. No. 15-CV-00384-LHK, 2015
WL 3792898, at *4 (N.D. Cal. June 17, 2015)
(quoting Self v. Gen. Motors Corn.. 588 F.2d 655,
657-58 (9th Cir. 1978)) (internal quotation omitted).
Section 1446(b)(3) “requires a paper that shows a
ground for removal that was previously unknowable
or unavailable.” Chan Healthcare Grp.. PS v. Liberty
Mut. Fire Ins. Co.. 844 F.3d 1133, 1142 (9th Cir.
2017) (citing 14C Charles Alan Wright et al., Federal
Practice and Procedure § 3731 (4th ed. 2016)).
In support of their assertion of federal question
jurisdiction, the Aminas posit that the foreclosure of
a mortgage is an “attempt to collect” pursuant to the
FDCPA. Whether or not federal question jurisdiction
exists is determined by the well-pleaded complaint
rule, which ‘“provides that federal jurisdiction exists
only when a federal question is presented on the face
of the plaintiffs properly pleaded complaint.’”
Hunter. 582 F.3d at 1042 (quoting Fisher v. NOS
Commc’ns. 495 F.3d 1052, 1057 (9th Cir. 2007));
Kerr. 2017 WL 880409, at *1; Takeda v.
Northwestern Nat’l Life Ins. Co.. 765 F.2d 815, 821
(9th Cir. 1985) (citations omitted) (“A case ‘arises
under’ federal law only if the federal question
appears on the face of the plaintiffs well-pleaded
complaint.”). Thus, “removal based on federal
question jurisdiction is improper unless a federal
claim appears on the face of a well-pleaded
complaint.” Redwood Theatres. Inc, v. Festival
Enters.. Inc.. 908 F.2d 477, 479 (9th Cir. 1990) (citing
Franchise Tax Bd. v. Constr. Laborers Vacation
Trust. 463 U.S. 1, 10 (1983); Gullv v. First Nat’l

-13Bank, 299 U.S. 109, 113 (1936)). The federal question
may not be aided by the answer or by the petition for
removal. Takeda. 765 F.2d at 822 (citation omitted).
A counter-claim presenting a federal question does
not create removability. Id.
If the Aminas genuinely believe that Plaintiffs
judicial foreclosure claim, as presented in the
Complaint, implicates the FDCPA, the first 30'day
period was triggered on April 19, 2018, the day they
were served. Insofar as the Aminas filed the Notice
56 days after service was effectuated, removal on the
basis of federal question jurisdiction is untimely.
The Aminas may not avail themselves of §
1446(b)(3)’s second 30-day window because there was
no voluntary act by Plaintiff that brought about a
change that rendered the case removable (when it
previously was not). Nor is there a paper showing a
ground for removal that was previously unknown or
unavailable.
B. The Aminas Improperly Removed Based on
Diversity Jurisdiction
The Aminas also improperly removed the action
based on diversity jurisdiction.4 In attempting to
invoke diversity jurisdiction, the Aminas state that
Plaintiff is a national association! that Plaintiffs
headquarters are in Minnesota! that SEC documents
refer to Cincinnati, Ohio! and that the Complaint
identifies $1,295,451.05 as the amount in
controversy. As earlier discussed, the Aminas
4 The Court need not discuss the timeliness of
removal based on diversity jurisdiction because the
removal was improper for the other reasons
discussed herein.

- 14erroneously disclaim Hawaii citizenship due to
alleged legal defects in the statehood process.
Federal district courts have original jurisdiction
over cases where the amount in controversy exceeds
$75,000, exclusive of interest and costs, and where
the matter in controversy is between citizens of
different states. See 28 U.S.C. § 1332(a)(1). Complete
diversity of citizenship requires that each of the
plaintiffs be a citizen of a different state than each of
the defendants. Morris v. Princess Cruises. Inc.. 236
F.3d 1061, 1067 (9th Cir. 2001). A procedural
limitation, known as the forum defendant rule, also
applies. It provides that actions based on diversity
jurisdiction may only be removed if none of the
properly joined and served defendants is a citizen of
the state in which the action is brought. 28 U.S.C. §
1441(b)(2); Lively v. Wild Oats Markets. Inc.. 456
F.3d 933, 939 (9th Cir. 2006) (Section 1441 “confines
removal on the basis of diversity jurisdiction to
instances where no defendant is a citizen of the
forum state”).
The Aminas’ removal on the basis of diversity
jurisdiction fails for multiple reasons. First, removal
violates the forum defendant rule.5 Notwithstanding
5 Because “this additional limitation on diversity-based
removal jurisdiction is a procedural, or non-jurisdictional, rule,”
any such challenges are subject to the 30-day limitation set forth
in § 1447(c). Lively, 456 F.3d at 939-41 (9th Cir. 2006) (holding
that “the forum defendant rule embodied in § 1441(b) is a
procedural requirement, and thus a violation of this rule
constitutes a waivable non-jurisdictional defect subject to the
30-day time limit imposed by § 1447(c)”). Section 1447(c)
provides: “A motion to remand the case on the basis of any
defect other than lack of subject matter jurisdiction must be

-15the
Aminas’
nonsensical
and
contradictory
representation that they are not citizens of Hawaii
given Hawaii’s illegal statehood, multiple records
within this district establish that they are in fact
citizens of Hawaii. As such, the forum defendant rule
precluded the Aminas from removing this action on
the basis of diversity jurisdiction.
Second, even if the forum defendant rule did not
prohibit removal, the Aminas have not articulated
with sufficient particularity the parties’ citizenships
to establish diversity jurisdiction.6 They assert that
public records show that Plaintiffs headquarters are
in Minnesota and that SEC documents refer to
Cincinnati, Ohio. A “national bank, for § 1348
purposes, is a citizen of the State in which its main
office, as set forth in its articles of association, is
located.” Wachovia Bank v. Schmidt. 546 U.S. 303,
307 (2006); Rouse v. Wachovia Mortg.. FSB, 747 F.3d
707, 715 (9th Cir. 2014) (“We hold that, under §
1348, a national banking association is a citizen only
of the state in which its main office is located.”). The
Aminas have not affirmatively identified the state
where Plaintiffs main office is located, as set forth in
its articles of incorporation. Moreover, as already
discussed, the Aminas misrepresent that they are
not citizens of Hawaii.7 The Aminas have therefore
made within 30 days after the filing of the notice of removal
under section 1446(a).” 28 U.S.C. § 1447(c). Plaintiff timely
raised the Aminas’ violation of the forum defendant rule.
6 The Complaint likewise does not include
averments concerning the parties’ citizenships.
7 If this were true, the Aminas failed to provide
their actual citizenships.

- 16failed to establish the existence of diversity
jurisdiction.
In sum, removal is untimely to the extent the
Aminas removed on the basis of federal question
jurisdiction. To the extent the Aminas removed on
the basis of diversity jurisdiction, removal is
improper because it violates the forum defendant
rule and because the Aminas failed to establish
diversity jurisdiction. Accordingly, the Court
recommends that Plaintiffs Motion be GRANTED
and that this action be remanded to state court.
C. Removal Expenses
The Court further recommends that the
reasonable fees and costs incurred in connection with
the removal be awarded to Plaintiff pursuant to 28
U.S.C. § 1447(c). When a federal court remands a
case, it “may require payment of just costs and any
actual expenses, including attorney fees, incurred as
a result of the removal.” 28 U.S.C. § 1447(c). The
Supreme Court has stated that- “Absent unusual
circumstances, courts may award attorney’s fees
under § 1447(c) only where the removing party
lacked an objectively reasonable basis for seeking
removal. Conversely, when an objectively reasonable
basis exists, fees should be denied.” Martin v.
Franklin Capital Corn.. 546 U.S. 132, 141 (2005)
(citations omitted). The district court retains
discretion to determine whether a given case
presents unusual circumstances that warrant a
departure from this rule. Id. The Martin Court also
instructed that
[t]he appropriate test for awarding fees under
§ 1447(c) should recognize the desire to deter
removals sought for the purpose of prolonging

- 17litigation and imposing costs on the opposing
party, while not undermining Congress’ basic
decision to afford defendants a right to remove
as a general matter, when the statutory
criteria are satisfied.
Id.
Having found that the Aminas lacked any
objectively reasonable basis for removal, and in
exercising its discretion, the Court finds that an
award of attorneys’ fees and costs incurred in
connection with the improper removal is appropriate
and warranted in this case.8 The reasonableness and
amount of the fees and costs will be determined after
Plaintiff s counsel submits a declaration in
conformance with Local Rules 54.2 and 54.3(d).
CONCLUSION
For the reasons stated above, the Court HEREBY
RECOMMENDS
that
Plaintiffs
Motion
be
GRANTED and that this action be remanded to the
Circuit Court of the First Circuit, State of Hawaii.
IT IS SO FOUND AND RECOMMENDED.
DATED: Honolulu, Hawaii, July 6, 2018.
Kevin S.C. Chang
United States Magistrate Judge
CIVIL NO. 18-00225 DKW KSC; U.S. BANK NAT’L
ASS’N V. AMINA, ET AL.; FINDINGS AND
RECOMMENDATION TO GRANT PLAINTIFF’S
8

That the Aminas are pro se does not militate
against an award, as they regularly engage in
litigation, and their pro se status should not excuse
them from consequences that other litigants are
subjected to when failing to comply with rules and
statutes.

- 18MOTION TO REMAND

App. le - [25] Order (no document)

25 Filed & Entered:

08/20/2018 Link

Docket
Text:
EO:
In
its
Findings
and
Recommendation to Grant Plaintiffs Motion to
Remand ("F&R”), this Court recommended that
Plaintiff be awarded attorneys’ fees and costs
associated with the improper removal of the case. On
7/20/18, Judge Watson adopted the F&R. After
reviewing Plaintiffs counsel’s declaration regarding
fees and costs, the Court finds that Plaintiff
reasonably incurred $3,447.64 in attorneys' fees and
tax, and $111.45 in costs and applicable tax.
Defendants are ordered to remit $3,559.09 to
Plaintiffs counsel by 9/3/18. (MAGISTRATE JUDGE
KEVIN S.C. CHANGXchangl)

I
-19App. If - [27] Order (no document)

27 Filed & Entered-

08/29/2018 Link

Docket Text: EO: On 8/20/18, this Court issued an
Entering Order ("EO") establishing the amount of
the award of fees and costs associated with the
improper removal of this action.
On 8/28/18, Defendants filed an Objection to the
EO on the following grounds: l) the Court lacks
jurisdiction due to the pending appeal; 2) removal
was not improper; 3) Plaintiff did not request
attorneys' fees; 4) Defendants were not served with
any documents concerning attorneys' fees, costs, or
tax, and did not have an opportunity to respond; 5)
Defendants did not agree to pay attorneys' fees; 6)
the attorneys' fees are excessive; and 7) the symbol
refers to Federal Reserve Notes, not lawful
money. The Court addresses each in turn. First, not
only does the Court retain jurisdiction to award fees
and costs pursuant to 28 U.S.C. § 1447(c) after
remand, the Court also retains jurisdiction to award
attorneys' fees after an appeal is filed. Moore v.
Permanente Med. Grp., Inc., 981 F.2d 443, 448 (9th
Cir. 1992) ("[B]ecause the award of attorney's fees
pursuant to 28 U.S.C. § 1447(c) is collateral to the
decision to remand, the district court retained
jurisdiction after remand to entertain Plaintiffs'
motion for attorney's fees."); Masalosalo by
Masalosalo v. Stonewall Ins. Co., 718 F.2d 955, 957
(9th Cir. 1983) ("The district court retained the
power to award attorneys' fees after the notice of
appeal from the decision on the merits had been

1
-20filed."). Notably, the award of expenses was made
prior to both the remand of this action and the filing
of the notice of appeal; the EO merely set forth the
amount of the award. Second, no further discussion
concerning the propriety of removal is warranted, as
that issue is presently on appeal. Third, the fact that
Plaintiff did not request expenses does not preclude
an award, as "[a]n order remanding the case may
require payment of just costs and any actual
expenses, including attorney fees, incurred as a
result of the removal." 28 U.S.C. § 1447(c). Fourth,
according to the certificate of service attached to
Plaintiffs counsel's Affidavit filed on 8/3/18,
Defendants were served via U.S. Mail that same day.
Fifth, the Court need not obtain Defendants’
agreement to award fees and costs against them.
Sixth, the Court issued its determination regarding
fees and costs after careful review of Plaintiffs
counsel’s Affidavit, and found the amounts to be
reasonable. Plaintiff would not have incurred those
fees and costs were it not for the improper removal.
Finally, Defendants' contention about the dollar sign
is frivolous and irrelevant. Although the Objection
was not properly presented as a motion for
reconsideration, to the extent it could be construed as
such, it is denied for the reasons articulated herein.
(MAGISTRATE
JUDGE
KEVIN
S.C.
CHANGXchangl)

